  09/24/2009 13:35         e00a00ea0e                       LOS ANGELES OIG                             PAGE   02/11
                                                                                                                p.l::
~"'p 1 8, as 04: 09a




                           NATIONAL l1A1LROAD PASSENGER CORl.'OMnON
                                  OFFICE OJJ INSPECTOR GENERAL
                                    OFI!'lCE Of lNVESTIGA'nUNS
                                 INVE:STIGATIVE CLOSING nEPORT

    'l'11'J>E:           Potential                                                   CASE NOMDER: 04-168
    l>A'l'.EOFREl!ORT:   ~r:         ~
    REPORT PnEl'ARED BV: _         S S A I _ SA
    1., .!!'XNDINHS OF FACT AND RECOMMENDA1'lONS

    A. FINDlNGS OF FACT

    1.     Tho Office of Iltspector General ("OIG"), OrHce of. In.vestlBntiO\)~ ("01") received infol'lllo.tlon
           allegittfl that Private Label Travei' ("PLI"}. a ~ompany that operated a hllsiness ventti~e for
           Amtt'i1k Marketing titled "Amtrak Vacations" was involved in questioJlable tml1sactiollS that
           advorselyimpacted Amtrak. Allegedly, L'LT violated th~ contractual "window of time" bel'NCC'1I
           ticket issue alld delivery of the tlckot to the ultimate passcugcr. PLT's CEO
                           LCpurtcu to Amtrak Marketing that the company was JII itoancial              co~t1(1
               carry on b~siness without financial assiRtance from Amtrak. Xt WAS also al        that in July
           2001\, the PLT cro,                           and tha I'LT CIO,                    each xccdv~d
           $200,000 in some fonn

   2.      01 found that PLT was (l \vholly owncd subsidiary of 1\ company named Iotemntionru Travel
           Brands, fnco.rporated ("lIB''). or found thal ITB was associated with IIUmerOIJS other travel
           relnted cOll1panl~. 01 isslled ~ubpoenas to PLT, .lTR, Glohal Vacations (houJ1, MAl VaCAtions,
           Inc" Classic Vacation Group. Gloootrotter Vacations, World of Goll'; Ski V~oatioll PlalJ'llcl'S, Ino.,
           Tout·j.t.li., Tl1o " and the Illinois SCC1'etolY of Stnte to 1"'''"11 muw inf(1l'J11nlIOll about    '~
         . business operations.

   3.      OIl'cviewcd tllo voluminous docmTlcllts recoivcd in compliance witlt the subpoenas, mid attempted
           to conduct interviews with            , - . !U\d            However aU tlu'eo obtnined nttorncys
           and they would not agree to be intervlewod by the oro.

   4.     01 and 010 Audi.! lll,,1 ,.lIlt the UnLted Smto's Attorney's Office l"USAO") i n _ t o discuss
          potential criminal chargos against PLr, but the USAO declined interest in purSUUlg the matter. '

   5.




   6.




 . Closing Roport04·16S.dooL               Page J Qf3
 09/2~/2009  13:35              0000000000                        LOS ANGELES OIG                      PAGE   03/11
B~p    18 09 04:109
                                                                                                              p. ':1




      7.      011 July 27, 2009, Ol .fcceived conespondcucc frolll the Law Dcpru11l1ent cOllfhmillg tuat
                                         ;                  ; i 22l j (See Exlllbit 2).
      8.          ~U'r.uo'   I.l,   2009,   or received contjnnatioll from the taw Department couflnniug that_
                                                                                Exhibit 3}.
      n.   RECOMMENDATIONS
       1. Close Ca.$ll PClIOU'!i

   Cbicflnspec.tOl"l


   Depu{y Xn.pector GeUCl'IIJlColluso):            &   L
                                                 ~-'---m
                                                                       Vate:   'I/n/:otJ-7
                                                                               tJ ~ :;
                                                                                           ~




Closing Report 04 ·168.docL                      .\'ogo 2 of3
  ~~/ Z q/ Z ~~~    l~:~O       ~~~~~~~~~~              LUS   AN~"'L"'S   UIG   PAGE   1'14/11
'SOp 16 09 04110a                                                                       p.'}




      1.


     2.
     3.




C/ositlg Rcpolt 04-168.<100)'                Page 300
